20-62

Case No.

In the Supreme Court of the United States
STEVEN COOPER
Petitioner,

v.
BAY COUNTY FLORIDA
BAY COUNTY SHERIFF'S OFFICE
DEPUTY NICHOLAS MACIAS
CODE ENFORCEMENT OFFICER KATHI ASHMAN
SHARON M. WOOSLEY

filed
AU6 10 2020

Respondents,

PETITION FOR WRIT OF CERTIORARI TO THE FLORIDA
FIRST DISTRICT COURT OF APPEALS, 1DCA NO.- 1D19-165

/s/Steven Cooper. Pro Se
PO Box 18617
Panama City Beach, FL 32417
AdversePossessionIsNotACrime@,gmail.com
850-312-5243

QUESTION PRESENTED
1. Whether the Florida Statute for Adverse Possession without Color of Title
section 95.18 is unconstitutionally vague on its face and as applied because
it has encouraged arbitrary enforcement in failing to describe with sufficient
particularity what an individual must do in order to satisfy the statute.
2. Whether an adverse possessor - while satisfying the statute of limitations of
actions holding period - has a right to bring an action in the nature of
mandamus to compel a law enforcement officer, governmental agency or
employee thereof to perform its ministerial, non discretionary duty owed
with respect to its enforcement and adherence to Florida Statute 95.18.
3. Whether expiration of the limitation of actions holding period serves to
escheat a new title converting possession to ownership or the right then to
adverse possession as declared and affirmed by the lower and district courts.
4. Whether an Adverse Possessor has the right to obtain construction building
permits in order to cultivate, maintain, and/or improve the possessed
property in a usual manner as required by state statute.
5. Whether it is unconstitutional for a citizen to be arrested for trespass or theft
when adversely possessing real property despite Florida Statute 95.18(9) and
(10) explaining they only apply when one fails to make the required return.
6. Whether a per curiam “affirmed” decision without opinion or reason
provided by a Court of Appeal is unconstitutional.
LIST OF RELATED CASES
1. Civil Mandamus Case No. 18000518CA is the originating action
2. First District Court of Appeal Case No. ID-19-165 is the appeal
3. Criminal Circuit Case No. 19000866CFMA was initiated by the respondent
in retaliation to a written complaint submitted to the agency and is ongoing
4. Florida Supreme Court Case No. SC20-99 is comprised of an extraordinary
petition requesting relief which was denied according to the Supreme Courts
“Logan Rule” refusing pleadings from pro se petitioners when “represented”
5. Florida Supreme Court Case No. SC20-752 is comprised of an extraordinary
petition requesting relief from a capias issued by the criminal court after
refusing to acknowledge the Notice of Waiver of Presence filed to which
was denied according to the Supreme Courts “Logan Rule” despite
petitioner seeking to discharge counsel and proceed pro se

Case No.

In the Supreme Court of the United States
STEVEN COOPER
Petitioner,

v.
BAY COUNTY FLORIDA
BAY COUNTY SHERIFF'S OFFICE
DEPUTY NICHOLAS MACIAS
CODE ENFORCEMENT OFFICER KATHI ASHMAN
SHARON M. WOOSLEY
Respondents,

PETITION FOR WRIT OF CERTIORARI TO THE FLORIDA
FIRST DISTRICT COURT OF APPEALS, 1DCANO.- 1D19-165
Petitioner, Steven Cooper, humbly and respectfully asks that a writ of
certiorari issue to review the judgment and opinion of the Florida First District
Court of Appeal, 1DCA# 1D19-165, filed on March 27, 2020, and Rehearing
Motion denial filed on May 12, 2020, regarding the trespassing and arrest of an
adverse possessor after establishing his right to adversely possess real property in
compliance with the statutory right provided by Florida Statute 95.18.

OPINION BELOW
The per curiam affirmed decision without opinion by the First District Court
of Appeal was issued on March 27, 2020.

An April 13, 2020, “Motion for

Rehearing/Rehearing En Banc, Motion for Written Opinion and Clarification and
Alternative Motion for Certification” was denied on May 12, 2020 followed by the
Mandate and West Publishing filed on June 2, 2020. An appeal to The Florida
Supreme Court was not submitted given it does not have jurisdiction to review one
word per curiam affirmed decisions without opinion.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a). The
decision for which petitioner seeks review was issued on March 27, 2020. This
petition is filed within 90 days of the Florida First District Court of Appeal
denying the Rehearing Motion on May 12, 2020, for discretionary review under
Rules 13.1 and 29.2 of this Court.
CONSTITUTIONAL PROVISIONS AND STATUTES INVOLVED
• United States Constitution, Amendment 5 provides, in pertinent part:

No

person shall... be deprived of life, liberty, or property without due process of
law....
• United States Constitution, Amendment 7 provides, in pertinent part:
Where the value in controversy shall exceed twenty dollars, the right of trial

by jury shall be preserved, and no fact tried by a jury... shall be reexamined in
any court, than according to the rules of the common law.
• United States Constitution, Amendment 14 Section 1 provides, in relevant part:
No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
• United States Code 28 USC1361: Action to compel an officer provides, in
relevant part:

Courts shall have original jurisdiction of any action in the

nature of mandamus to compel an officer or employee or any agency to perform
a duty owed...
• Florida Statute for Adverse Possession without Color of Title section 95.18
provides, in relevant part:

(9) A person who occupies... solely by claim of

adverse possession... prior to makinsa return as required under subsection (3),
commits trespass.
STATEMENT OF CASE
An adverse possessor, after lawfully establishing adverse possession, was
trespassed then later arrested by the Bay County Sheriffs Office. Mandamus was
sought to compel the Sheriffs Office to perform its duty to enforce and comply
with the laws of Florida of which provide the statutory right to adversely possess

real property, additionally specifying trespass is only applicable when the required
notice form is not submitted and theft is only applicable if the property is leased to
another, again prior to submitting the required form.
The circuit court denied mandamus claiming a clear legal right to compel
law enforcement to enforce the laws of Florida does not exists for a citizen seeking
adherence to a law, despite the existence of FS 95.18 which affords the right,
“because he has not adversely possessed the subject property for the seven-year
period”. Thus, the trial court opined that an adverse possessor does not have the
right through mandamus to compel law enforcement to perform its duty as
prescribed by State Law until ownership is obtained at the end of the statute of
limitations holding period.
The First District Court of Appeals summarily affirmed the lower courts
position without opinion therefore it is impossible to know if they agree with the
rationale provided or, simply the end result that a citizen seeking to apply the laws
of the state for adverse possession does not have a right to do so through
mandamus until his possession ripens to ownership.
Emboldened by this erroneous ruling, and in retaliation to the petitioners
legal action and a written complaint to the agency, the Bay County Sheriffs Office
sought, obtained an arrest warrant, and arrested the petitioner for grand theft and
criminal mischief simply for exercising his statutory right to adversely possesses

real property and exercising his constitutional rights to petition the government for
redress of grievances. This charade has morphed into a sham prosecution by the
State Attorney filing information prosecuting the petitioner in conjunction with a
judge and Public Defender all working together to unconstitutionally deprive the
petitioner of his right to adequate assistance of counsel and a fair and unbiased
trial.
REASONS FOR GRANTING THE PETITION
The trial court erred in denying Mandamus relief requested stating,
“Petitioner fails to make a prima facie case that he has a clear legal right to relief
sought” (despite the statutory right as provided by Florida Statute 95.18) because
“adverse possession without color of title requires seven years of open, continuous,
actual possession”.

This statement alone contradicts the Courts decision and

reasoning for denying relief requested. Actual possession is a requirement. The
right to actual possession is what’s at stake here and is the relief requested. The
Court sites Candler Holdings Ltd. I v. Watch Omega Holdings which, in fact,
actually originates “As stated in Meyer v. Law. 287 So.2d 37. 40-41 (Fla. 1973!:”
and the Court fails to include the most important words in this case law which is
“there are only two wavs to ACQUIRE LAND by adverse possession” followed by
the exact reason mandamus was requested as “the claimant must show seven years
of open, continuous actual possession”. Mandamus was requested to direct the

respondents to “enforce a clear legal right to the performance of a clear legal duty”
which in this case, was to comply with FS 95.18 and correct its improper doing of
criminally trespassing an adverse possessor when the correct action is for the
owner of record to seek civil ejection or civil trespass in order to quiet title and
remove the cloud of adverse possession.
The trial courts August 13, 2018 Order Denying Mandamus failed to address
the relief sought in the original petition as it erred in its understanding and
application of the actual possessory requirement of FS. 95.18 adverse possession
which requires actual possession, for the statute of limitation seven year period, of
which serves to expire ones right to commence an action to recover real property.
Upon expiration of the seven year holding period, the result is the transfer of title
from the owner of record, to the adverse possessor; NOT the establishment of the
right to then possess the property. In doing so, the trial court directly prejudiced
the petitioners right to possess property under a claim of title exclusive of any
other right in accordance with Florida Statutes §95.18- Adverse Possession without
Color of Title and his ability to satisfy the statute of limitations seven year holding
period requirement of hostile, open, continuous, and actual possession.
The trial court error has led to the petitioner suffering irreparable harm to
include demolition of all structures by the county and theft of the petitioners real
and personal property situated on the adversely possessed property. An adverse

possessor must provide clear and convincing positive proof that the land adversely
possessed has been continuous, open, exclusive, and notoriously possessed for an
uninterrupted period of 7 years. Such possession may ripen into title bv adverse
possession. In Florida, it is lawful to acquire land by adverse possession without
color of title when the occupant or possessor is an actual, continued the occupation
of real property under claim of title, exclusive of any other right, even though not
founded on a written instrument. Property is deemed possessed when it has been
usually cultivated or improved or it has been protected by substantial enclosure.
Furthermore, property is deemed possessed when it has been used for the ordinary
use of the occupant, construed to mean a use appropriate to the character and
location of the property.
The actions of the Sheriffs Office supported by the opinion of the Florida
Courts are depriving the petitioner not only of his statutory right to adverse
possession, he is being deprived of his constitutional right to life, liberty, or
property without due process of law, and he is being deprived of his constitutional
right to due process according to the rules of the common law and the equal
protection of these laws.
CONCLUSION
The simple mandamus petition to affirm an adverse possessor’s rights and
requirements should not have been treated like a standard, quiet title action. The
petitioner was unlawfully criminally trespassed from the property in his adverse

possession and the trial court was asked to, and should have, declared it wrong
given the appropriate remedy is an civil action trough judicial procedure in order
for all parties claiming an interest to have their day in court to declare and assert
their interest for a decision based upon the merits in accordance with state and case
law. The decision is not a discretionary one the Sherriff s Office is authorized nor
tasked to decide irrationally in the field. The action of criminally trespassing a
civil adverse possessor directly infringes upon his constitutional rights to possess
property and due process to assert his interests.
For the foregoing reasons, petitioner respectfully preys this Honorable Court
grant the petition for certiorari to review both the civil and criminal atrocities being
committed against him, reverse the Order Denying Mandamus or issue the Writ of
Mandamus on its own to instruct the respondent Bay County Sherriff s Office to
perform its duty of enforcing the law as mandated, and discharge him from the
criminal sham prosecution. The simple rule should be that if a law enforcement
agency refuses to comply and enforce the law in fulfillment of its duties, a citizen
has the clear legal right to obtain mandamus from the courts to compel proper
performance of the duty owed. Petitioner urges this Court to take review in order
to delineate and clearly advise all the land of the rights of a citizen in adverse
possession of real property and duty owed to them by law enforcement.
Respectfully submitted,
/s/Steven Cooper. Pro Se

